                                                         10 July 2009
      Preface
            (U) Title III of the Foreign Intelligence Surveillance Act
      Amendments Act of 2008 required the Inspectors General (IGs) of
      the elements of the Intelligence Community that participated in
      the President's Surveillance Program (PSP) to conduct a
      comprehensive review of the program. The IGs of the Department
      of Justice, the Department of Defense, the Central Intelligence
      Agency, the National Security Agency, and the Office of the
      Director of National Intelligence participated in the review
      required under the Act.  The Act required the IGs to submit a
      comprehensive report on the review to the Senate Select
      Committee on Intelligence, the Senate Committee on the
      Judiciary, the House Permanent Select Committee on Intelligence,
      and the House Committee on the Judiciary.

            (U) In response to Title III requirements, we have
      prepared this unclassified report on the PSP, which summarizes
      the collective results of our reviews.  Because many aspects of
      the PSP remain classified, and in order to provide the
      Congressional committees the complete results of our reviews,
      we also prepared, and have bound separately, a classified
      report on the PSP.  The individual reports detailing the
      results of each IG's review are annexes to the classified
      report .


L
                                   Co,J)_~.    £b./I2W
o
   Glenn A. Fine
     Inspector General
     Department of Justice
                                    Gordon S. Heddell
                                    Acting Inspector General
                                    Department of Defense
r

     9rlnl W tt&J1;:J
     Patricia A. LeWiS
     Acting Inspector General
                                    Ge~ f20j0JLc(
                                    Inspector General
     Central Intelligence Agency    National Security Agency




     ROkh:.~
     Inspector General
                                 ~ 

     Office of the Director of
       National Intelligence
                            UNCLASSIFIED REPORT ON THE 

                         PRESIDENT'S SURVEILLANCE PROGRAM 


I. 	     INTRODUCTION ................................................................................ 1 

         A. 	     Scope of Report........................................................................ 2 

         B. 	     Methodology of this Review ...................................................... 3 


II. 	    INCEPTION OF THE PRESIDENT'S SURVEILLANCE PROGRAM 

         (PSP) ................................................................................................. 4 

         A. 	     Expansion of NSA's Collection Activities ................................... 4 

         B. 	     Presidential Authorization of the PSP ....................................... 5 

         C. 	     Threat Assessment Memoranda Supporting Authorization of 

                  the PSP .................................................................................... 7 

         D. 	     Department of Justice Office of Legal Counsel's Early 

                  Memoranda Supporting the Legality of the PSP ...................... 10 


III. 	   IMPLEMENTATION OF THE PRESIDENT'S SURVEILLANCE 

         PROGRAM ...................................................................................... 14 

         A. 	     NSA Intelligence Activities under the PSP ............................... 14 

         B. 	    Access to the PSP ................................................................... 16 

                  1. 	     Executive Branch Personnel .........................................                16   

                  2. 	     Congressional Briefings ................................................            16   

                  3. 	     Foreign Intelligence Surveillance Court Briefings ..........                        17   

                  4. 	     FBI Participation in the PSP .........................................              17   

                  5. 	     CIA Participation in the PSP .........................................              17   

                  6. 	     ODNI Participation in the PSP ......................................                18   

         C. 	     Impact of PSP-Derived Information on the FISA Process ......... 18 

         D. 	     Discovery Issues .................................................................... 18 


IV. 	    LEGAL REASSESSMENT OF THE PRESIDENT'S SURVEILLANCE 

         PROGRAM ...................................................................................... 19 

         A. 	    Justice Department Attorneys Become Concerned About the 

                 Legality of Some Activities under the PSP ............................... 19 

         B. 	    OLC Begins Developing a New Legal Analysis for the PSP ....... 20 

         C. 	     DOJ Officials Convey Concerns to the White House ............... 20 

         D. 	    Conflict Between DOJ and the White House ........................... 21 

         E. 	    White House Counsel Certifies Presidential Authorization 

                 Without Department of Justice Concurrence .......................... 26 




                                                        1
        F. 	     Department of Justice and FBI Officials Consider Resigning .. 27 

        G. 	    White House Agrees to Modify the PSP ................................... 29 

        H. 	    Department of Justice OIG Conclusions................................. 30 


V. 	    TRANSITION OF CERTAIN PROGRAM ACTIVITIES TO FOREIGN 

        INTELLIGENCE SURVEILLANCE COURT ORDERS .......................... 30 


VI. 	   IMPACT OF THE PRESIDENT'S SURVEILLANCE PROGRAM ON 

        INTELLIGENCE COMMUNITY COUNTERTERRORISM EFFORTS ..... 31 

        A. 	    NSA's Assessment of the PSP ................................................. 31 

        B. 	    DOJ OIG's Assessment of the PSP.......................................... 32 

        C. 	    CIA OIG's Assessment of the PSP ........................................... 33 

        D. 	    ODNI's Assessment of the PSP ............................................... 35 

        E. 	    Intelligence Community Activities Supported by the PSP ........ 36 


VII. 	 PUBLIC STATEMENTS ABOUT THE PRESIDENT'S SURVEILLANCE 

       PROGRAM ...................................................................................... 36 


VIII. 	 CONCLUSION ................................................................................. 37 





                                                   11
                       UNCLASSIFIED REPORT ON THE 

                    PRESIDENT'S SURVEILLANCE PROGRAM 



I.     INTRODUCTION 


       In the weeks following the terrorist attacks of September 11, 2001, the
President authorized the National Security Agency (NSA) to conduct a
classified program to detect and prevent further attacks in the United
States. As part of the NSA's classified program, several different intelligence
activities were authorized in Presidential Authorizations, and the details of
these activities changed over time. The program was reauthorized by the
President approximately every 45 days, with certain modifications.
Collectively, the activities carried out under these Authorizations are
referred to as the "President's Surveillance Program" or "PSP."l

       One of the activities authorized as part of the PSP was the
interception of the content of communications into and out of the United
States where there was a reasonable basis to conclude that one party to the
communication was a member of al-Qa'ida or related terrorist organizations.
This aspect of the PSP was publicly acknowledged and described by the
President, the Attorney General, and other Administration officials
beginning in December 2005 following a series of articles published in The
New York Times. The Attorney General subsequently publicly acknowledged
the fact that other intelligence activities were also authorized under the
same Presidential Authorization, but the details of those activities remain
classified.

      The President and other Administration officials labeled the publicly
disclosed interception of the content of certain international
communications by the NSA as the "Terrorist Surveillance Program."

      Several different agencies had roles in the PSP. At the request of the
White House, the NSA was involved in providing the technical expertise
necessary to create the program. The NSA also was responsible for
conducting the actual collection of information under the PSP and

       1 In Title III of the Foreign Intelligence Surveillance Act Amendments Act of 2008
(FISA Amendments Act), the President's Surveillance Program is defined as
       the intelligence activity involvipg communications that was authorized by the
       President during the period beginning on September 11,2001, and ending
       on January 17,2007, including the program referred to by the President in a
       radio address on December 17, 2005 (commonly known as the Terrorist
       Surveillance Program).
FISA Amendments Act, Title III, Sec. 301(a)(3).




                                              1

disseminating intelligence reports to other agencies such as the Federal
Bureau ofInvestigation (FBI), the Central Intelligence Agency (CIA), and the
Office of the Director of National Intelligence (ODNI) National
Counterterrorism Center (NCTC) for analysis and possible investigation. 2 In
addition, the NSA Office of General Counsel and Office of the Inspector
General were responsible for reviewing and monitoring the NSA's PSP
operation. With the exception of the NSA, the Department of Defense (DoD)
had limited involvement in the PSP.

       Components of the Department of Justice (DOJ) other than the FBI
also were involved in the program. Most significantly, DOJ's Office of Legal
Counsel (OLC) provided advice to the White House and the Attorney General
on the overall legality of the PSP. In addition, DOJ's Office of Intelligence
Policy and Review (now called the Office of Intelligence in DOJ's National
Security Division) worked with the FBI and the NSA to address the impact
PSP-derived information had on proceedings under the Foreign Intelligence
Surveillance Act (FISA). DOJ's National Security Division also handled
potential discovery issues that may have involved PSP-related information in
international terrorism prosecutions.

      The CIA, in addition to receiving intelligence reports as PSP
consumers, requested information from the program and utilized this
information in its analyses. The CIA also initially prepared threat
assessment memoranda that were used to support the periodic Presidential
Authorizations.

       Beginning in 2005, the newly-created ODNI assumed responsibility
for preparing these threat assessment memoranda. In addition, NCTC
analysts received program information for possible use in analytical
products prepared for the President, senior policymakers, and other
Intelligence Community (IC) analysts and officers.

       A.     Scope of Report

      Title III of the Foreign Intelligence Surveillance Act of 1978
Amendments Act of 2008 (FISA Amendments Act) - signed into law on
July 10,2008 - required the Inspectors General of Intelligence Community
agencies that participated in the PSP to conduct a comprehensive review of
the program. The review required to be conducted under the Act was to
examine:

        2 The National Counterterrorism Center was made a subcomponent of the Office of
the Director of National Intelligence by the Intelligence Reform and Terrorism Prevention
Act of 2004 and is charged with being the primary U.S. Government organization for
analyzing and integrating counterterrorism intelligence, except for intelligence pertaining
exclusively to domestic terrorists and domestic counterterrorism.




                                             2

      (A) 	      all of the facts necessary to describe the
                 establishment, implementation, product, and use of
                 the product of the Program;

      (B) 	      access to legal reviews of the Program and access to
                 information about the Program;

      (C) 	      communications with, and participation of,
                 individuals and entities in the private sector related
                 to the Program;

      (D) 	      interaction with the Foreign Intelligence Surveillance
                 Court and transition to court orders related to the
                 Program; and

      (E) 	      any other matters identified by any such Inspector
                 General that would enable that Inspector General to
                 complete a review of the Program, with respect to
                 such Department or element.

       The Inspectors General (IGs) of the DoD, DOJ, CIA, NSA, and ODNI­
collectively the "PSP IG Group" - conducted the review required under the
Act. This unclassified report summarizes the portions of the collective
results of the IG reviews that can be released in unclassified form. A
separate classified report summarizes the classified results of the individual
IG reviews. In addition, the individual IG reports that document the results
of each of the participating IGs' reviews and investigations, which provide
additional classified details concerning the PSP and each agency's role in
the PSP, are included as attachments to the classified report.

      Title III of the FISA Amendments Act required that the report of any
investigation of matters relating to the PSP conducted by the DOJ Office of
Professional Responsibility (OPR) be provided to the DOJ Inspector General,
and that the findings and conclusions of such investigation be included in
the DOJ OIG review. OPR has initiated a review of whether any standards
of professional conduct were violated in the preparation of the first series of
legal memoranda supporting the PSP. OPR has not completed its review.

      B.      Methodology of this Review

       The PSP IG Group collectively interviewed approximately 200
government and private sector personnel as part of this review. Most of the
interviews were conducted separately by the individual OIGs as part of their
agency-specific reviews, although some interviews were conducted jointly.
Among the interviewees were former and current senior government
officials, including Director of National Intelligence (DNI) John D.
Negroponte, NSA Director Keith Alexander, and DNI Michael McConnell,


                                       3

NSA and CIA Director and Principal Deputy DNI (PDDNI) Michael V.
Hayden, White House Counsel and Attorney General Alberto Gonzales, FBI
Director Robert Mueller, and Secretary of Defense Donald Rumsfeld.
Certain senior officials either declined or did not respond to our requests to
be interviewed for this review, including Counsel to the Vice President David
Addington, White House Chief of Staff Andrew Card, Attorney General John
Ashcroft, DOJ Office of Legal Counsel Deputy Assistant Attorney General
John Yoo, and former Director of Central Intelligence George Tenet.

      The OIGs also interviewed many agency managers and personnel,
including attorneys, NSA operational personnel, FBI special agents and
analysts, and CIA officials and analysts who were responsible for the
day-to-day operation of the PSP, including the legal issues associated with
the program.

       In addition to these interviews, the PSP IG Group reviewed thousands
of documents and electronic records, including the Presidential
Authorizations and Threat Assessments supporting reauthorization of the
program, OLC legal memoranda, contemporaneous notes and e-mails of
various senior officials describing significant events during the program,
Foreign Intelligence Surveillance Court (FISC) pleadings and orders, and
documents that were used to disseminate PSP-derived leads to FBI field
offices and CIA stations for investigation and for other purposes related to
the PSP. Finally, there were previous NSA OIG reports and supporting
documentation to use as additional sources.


II. 	   INCEPTION OF THE PRESIDENT'S SURVEILLANCE PROGRAM
        (PSP)

        A. 	   Expansion of NSA's Collection Activities

      Prior to September 11,2001, the Foreign Intelligence Surveillance Act
of 1978 and Executive Order 12333 were generally viewed as the principal
governing authorities for conducting electronic surveillance for national
security purposes. 3 The Foreign Intelligence Surveillance Act, 50 U.S.C.
§ 1801, et seq., was enacted in 1978 to "provide legislative authorization
and regulation for all electronic surveillance conducted within the United
States for foreign intelligence purposes." S. Rep. No. 95-701, at 9 (1978),
reprinted in 1978 U.S.C.C.A.N. 3973,3977. Executive Order 12333 placed

        3 Executive Order 12333 was amended on July 30,2008 by Executive Order 13470.
This report refers to Executive Order 12333 as it existed prior to that amendment. The
Foreign Intelligence Surveillance Act (FISA), 50 U.S.C. § 1801, et seq. also was amended by
the FISA Amendments Act of 2008. Unless otherwise indicated, this report refers to FISA
as it existed prior to 2008.




                                             4

restrictions on intelligence collection activities engaged in by Executive
Branch agencies, including the NSA, while also seeking to foster "full and
free exchange of information" among these agencies. In 2000 the NSA
reported to Congress that

       (U) The applicable legal standards for the collection, retention,
       or dissemination of information concerning u.s. persons reflect
       a careful balancing between the needs of the government for
       such intelligence and the protection of the rights of u.s.
       persons, consistent with the reasonableness standard of the
       Fourth Amendment, as determined by factual circumstances.
       (U) In the Foreign Intelligence Surveillance Act (FISA) and
       Executive Order (E.O.) 12333, Congress and the Executive have
       codified this balancing. (Citations omitted.)4

       As explained below, the PSP expanded the NSA's authority by allowing
it to conduct electronic surveillance within the United States without an
order from the FISC when certain factual conditions and legal standards
were met.

       B.     Presidential Authorization of the PSP

       In the days immediately after September 11, 2001, the NSA used its
existing authorities to gather intelligence information in response to the
terrorist attacks. When Director of Central Intelligence Tenet, on behalf of
the White House, asked NSA Director Hayden whether the NSA could do
more against terrorism, Hayden replied that nothing more could be done
within existing authorities. When asked what he might do with more
authority, Hayden said he put together information on what was
operationally useful and technologically feasible. This information formed
the basis of the PSP.

       Shortly thereafter, the President authorized the NSA to undertake a
number of new, highly classified intelligence activities. 5 All of these
activities were authorized in a single Presidential Authorization that was
periodically reauthorized.

      The specific intelligence activities that were permitted by the
Presidential Authorizations remain highly classified, except that beginning

       4 Legal Standards for the Intelligence Community in Conducting Electronic
Surveillance, Report to Congress pursuant to Fiscal Year 2000 Intelligence Authorization
Act.
      5 See Letter from Attorney General Alberto Gonzales to Senator Patrick Leahy,
Chairman, Committee on the Judiciary (Gonzales Letter), August 1,2007.




                                             5

in December 2005 the President and other Administration officials
acknowledged that these activities included the interception without a court
order of certain international communications where there is "a reasonable
basis to conclude that one party to the communication is a member of
al-Qa'ida, affiliated with al-Qa'ida, or a member of an organization affiliated
with al-Qa'ida."6 The President and other Administration officials referred to
this publicly disclosed activity as the "Terrorist Surveillance Program," a
convention we follow in this unclassified report. We refer to other
intelligence activities authorized under the Presidential Authorizations as
the "Other Intelligence Activities." The specific details of the Other
Intelligence Activities remain highly classified, although the Attorney
General publicly acknowledged the existence of such activities in August
2007. 7 Together, the Terrorist Surveillance Program and the Other
Intelligence Activities comprise the PSP.

       The Presidential Authorizations were issued at intervals of
approximately every 45 days. As described in the next section, with each
reauthorization the CIA and later the NCTC prepared an assessment of
current potential terrorist threats and a summary of intelligence gathered
through the PSP and other means during the previous authorization period.
The Department of Justice's Office of Legal Counsel reviewed this
information to assess whether there was "a sufficient factual basis
demonstrating a threat of terrorist attacks in the United States for it to
continue to be reasonable under the standards of the Fourth Amendment
for the President to [continue] to authorize the warrantless searches
involved" in the program. The Office of Legal Counsel then advised the
Attorney General whether the constitutional standard of reasonableness had
been met and whether the Presidential Authorization could be certified "as
to form and legality." Each of the Presidential Authorizations included a
finding to the effect that an extraordinary emergency continued to exist, and
that the circumstances "constitute an urgent and compelling governmental
interest" justifying the activities being authorized without a court order.

       Each Presidential Authorization also included a requirement to
maintain the secrecy of the activities carried out under the program. The
President also noted his intention to inform appropriate members of the
Senate and the House of Representatives of the program "as soon as I judge
that it can be done consistently with national defense needs." As discussed
in Section III.B.2. below, beginning on October 25,2001, White House


       6 Press Briefing by Attorney General Alberto Gonzales and General Michael Hayden,
Principal Deputy Director for National Intelligence (December 19, 2005) (statement of
Attorney General Gonzales).
       7   Gonzales Letter, August 1, 2007.




                                              6

officials and Hayden provided briefings on the PSP to members of Congress
and their staffs.

       Although there was no legal requirement that the Authorizations be
certified by the Attorney General or other Department of Justice official,
current and former DOJ officials told us that this certification added value
by giving the program a sense of legitimacy. Former Attorney General
Gonzales stated that the NSA was being asked to do something it had not
done before, and it was important to assure the NSA that the Attorney
General had approved the legality of the program. He also stated that it was
important that the cooperating private sector personnel know that the
Attorney General had approved the program. In addition, Gonzales said
that for "purely political considerations" the Attorney General's approval of
the program would have value "prospectively" in the event of congressional
or inspector general reviews of the program.

      c. 	   Threat Assessment Memoranda Supporting Authorization of
             the PSP

      The CIA initially prepared the threat assessment memoranda that
were used to support the Presidential Authorization and periodic
reauthorizations of the PSP. The memoranda documented intelligence
assessments of the terrorist threats to the United States and to U.S.
interests abroad from al-Qa'ida and affiliated terrorist organizations. These
assessments were prepared approximately every 45 days to correspond with
the President's Authorizations of the PSP.

       The Director of Central Intelligence's (DCI) Chief of Staff was the initial
focal point for preparing the threat assessment memoranda. According to
the former DCI Chief of Staff, he directed CIA terrorism analysts to prepare
objective appraisals of the current terrorist threat, focusing primarily on
threats to the U.S. homeland, and to document those appraisals in a
memorandum. Initially, the analysts who prepared the threat assessments
were not read into the PSP and did not know how the threat assessments
would be used. CIA's terrorism analysts drew upon all sources of
intelligence in preparing these threat assessments.

        After the terrorism analysts completed their portion of the
memoranda, the DCI Chief of Staff added a paragraph at the end of the
memoranda stating that the individuals and organizations involved in global
terrorism (and discussed in the memoranda) possessed the capability and
intention to' undertake further terrorist attacks within the United States.
The DCI Chief of Staff recalled that the paragraph was provided to him
initially by a senior White House official. The paragraph included the DCI's
recommendation to the President that he authorize the NSA to conduct
surveillance activities under the PSP. CIA Office of General Counsel (OGC)


                                        7

attorneys reviewed the draft threat assessment memoranda to determine
whether they contained sufficient threat information and a compelling case
for reauthorization of the PSP. If either was lacking, an OGC attorney would
request that the analysts provide additional threat information or make
revisions to the draft memoranda.

      The threat assessment memoranda were then signed by the DCI.
George Tenet signed most of the threat memoranda prepared during his
tenure as DCI. On the few occasions when he was unavailable, the Deputy
Director of Central Intelligence, John E. McLaughlin, signed the memoranda
on behalf of Tenet. McLaughlin also signed the memoranda in the capacity
of Acting DCI in August and September 2004.

      In November 2004, Porter J. Goss became DCI and assumed
responsibility for signing the memoranda. There were no occasions when
the DCI or Acting DCI withheld their signatures from the threat assessment
memoranda. The memoranda were co-signed by the Secretary of Defense,
reviewed by the Attorney General, and delivered to the White House to be
attached to the PSP Presidential Authorizations signed by the President.

      Responsibility for drafting the threat assessment memoranda was
transferred from the CIA to the newly established Terrorist Threat
Integration Center (TIIC) in May 2003. This responsibility subsequently
was retained by TIIC's successor organization, the NCTC. The DCI
continued to sign the threat assessment memoranda through April 2005.

      The ODNI was established in April 2005, and the NCTC became a
subcomponent of the ODNI. Once Ambassador Negroponte was confirmed
as the DNI, senior IC officials believed that DNI Negroponte, as the
President's new senior intelligence advisor, should make the IC's
recommendation to the President regarding the need to renew the PSP.

       The preparation and approval of the threat assessments became the
ODNI's primary role in the PSP. Beginning in April 2005, and continuing at
specific intervals until the program's termination in early 2007, ODNI
personnel prepared and approved threat assessments in support of the
periodic renewal of the PSP.

      The ODNI OIG found that the ODNI threat assessments were drafted
by experienced NCTC personnel who prepared the documents in a
memorandum style following an established DOJ format used in earlier PSP
renewals. Throughout the ODNI preparation and approval process, the
threat assessments were also subject to varying degrees of review and
comment by DOJ and ODNI attorneys. Each threat assessment was
designed to set forth the DNI's view regarding the current threat of an
al-Qa'ida attack against the United States and to provide the DNI's


                                     8

recommendation whether to renew the PSP. NCTC personnel involved in
preparing the threat assessments told the ODNI OIG that the danger of a
terrorist attack described in the threat assessments was sobering and
"scary," resulting in the threat assessments becoming known by ODNI and
IC personnel involved in the PSP as the "scary memos." During interviews,
ODNI personnel said they were aware the threat assessments were relied
upon by DOJ and White House personnel as the basis for continuing the
PSP, and understood that if a threat assessment identified a threat against
the United States the PSP was likely to be renewed. NCTC analysts also
reported that on a less frequent basis they prepared a related document
that set forth a list of al-Qa'ida affiliated groups that they understood were
targets of the PSP. The ODNI OIG found that the threat asses~ments and
the less frequent list of al- Qa'ida-affiliated groups underwent the same
ODNI approval process.

       The ODNI OIG also determined that the ODNI threat assessments
were prepared using evaluated intelligence information chosen from a wide
variety of IC sources. ODNI personnel told the ODNI OIG that during the
period when the ODNI prepared the threat assessments, the IC had access
to fully evaluated intelligence that readily supported the ODNI assessments
that al-Qa'ida terrorists remained a significant threat to the United States.
The ODNI OIG found that once the ODNI threat assessments were approved
within NCTC and by the NCTC Director, the documents were forwarded
through an established approval chain to senior ODNI personnel who
independently satisfied themselves that the documents were accurate,
properly prepared, and in the appropriate format.

      Once the draft threat assessments were sUbjected to this systematic
and multi-layered management and legal review, the documents were
provided to the DNI or his Principal Deputy (PDDNI) for consideration and, if
appropriate, approval. Overall, the ODNI OIG found that the ODNI process
used to prepare and obtain approval of the threat assessments was
straightforward, reasonable, and consistent with the preparation of other
documents requiring DNI or PDDNI approval.

       NCTC analysts involved in preparing the threat assessments told the
ODNI OIG that only a portion of the PSP information was ever used in the
ODNI threat assessments because other intelligence sources were available
that provided more timely or detailed information about the al-Qa'ida threat
to the United States. During interviews, the NCTC analysts noted that PSP
information was only one of several valuable sources of intelligence
information available to them. The NCTC analysts also told ODNI OIG staff
that during the period when the NCTC prepared the threat memoranda, the
intelligence demonstrating the al-Qa'ida threat to the United States was
overwhelming and readily available to the IC.



                                       9

       D. 	    Department of Justice Office of Legal Counsel's Early
               Memoranda Supporting the Legality of the PSP

      From the outset of the program, access to the PSP for non-operational
personnel was tightly restricted. Former White House Counsel and Attorney
General Alberto Gonzales told the DOJ OIG that it was the President's
decision to keep the program a "close hold." Gonzales stated that the
President made the decision on all requests to "read in" any non-operational
persons, including DOJ officials. 8

       DOJ Office of Legal Counsel (OLC) Deputy Assistant Attorney General
John Yoo was responsible for drafting the first series of legal memoranda
supporting the program.9 Yoo was the only OLC official "read into" the PSP
from the program's inception in October 2001 until Yoo left DOJ in
May 2003.10 The only other non-FBI DOJ officials read into the program
during this period were Attorney General Ashcroft and Counsel for
Intelligence Policy James Baker.

       Jay Bybee was OLC Assistant Attorney General from November 2001
through March 2003, and Yoo's supervisor. Bybee told the DOJ OIG that in
early July 2001, before he was confirmed, he learned that Yoo was already
under consideration for one of OLC Deputy Assistant Attorney General slots.
Bybee said he was "enthusiastic" about Yoo and later agreed to Yoo's
request to be assigned to the "national security portfolio" because Y00 had
more national security experience than any of the other OLC deputies.

      However, Bybee stated he was never read into the PSP and could shed
no further light on how Yoo came to draft the OLC opinions on the program.
He said that Yoo had responsibility for supervising the drafting of opinions
related to other national security issues when the September 11 attacks


        8 Gonzales testified before the Senate Judiciary Committee on July 18,2006, that
"[a]s with all decisions that are non-operational in terms of who has access to the program,
the President of the United States makes the decisions, because this is such an important
program[.]"
        9 The Office of Legal Counsel (OLC) typically drafts memoranda for the Attorney
General and the Counsel to the President, usually on matters involving significant legal
issues or constitutional questions, and in response to legal questions raised by Executive
Branch agencies. In addition, all Executive Orders proposed to be issued by the President
are reviewed by the Office of Legal Counsel as to form and legality, as are other matters that
require the President's formal approval.
        10 The process of being "read into" a compartmented program generally entails
being approved for access to particularly sensitive and restricted information about a
classified program, receiving a briefing about the program, and formally acknowledging the
briefing, usually by signing a nondisclosure agreement describing restrictions on the
handling and use of information concerning the program.




                                             10 

occurred. l1 Bybee described Yoo as "articulate and brilliant," and said he
had a "golden resume" and was "very well connected" with officials in the
White House. Bybee said that from these connections, in addition to Yoo's
scholarship in the area of executive authority during wartime, it was not
surprising that Yoo "became the White House's guy" on national security
matters.

        In September and early October 2001, Yoo prepared several
preliminary opinions relating to hypothetical random domestic electronic
surveillance activities, but the first OLC opinion explicitly addressing the
legality of the PSP was not drafted until after the program had been formally
authorized by President Bush in October 2001. Attorney General Ashcroft
approved the first Presidential Authorization for the PSP as to "form and
legality" on the same day that he was read into the program.

       The first OLC opinion directly supporting the legality of the PSP was
dated November 2, 2001, and was drafted by Yoo. As discussed in Section
IV of this report, deficiencies in Yoo's memorandum identified by his
successors in the Office of Legal Counsel and the Office of the Deputy
Attorney General later became critical to DOJ's decision to reassess the
legality of the program in 2003.

       Yoo's November 2,2001 memorandum focused almost exclusively on
the activity that the President later publicly confirmed as the Terrorist
Surveillance Program. Y00 acknowledged that FISA "purports to be the
exclusive statutory means for conducting electronic surveillance for foreign
intelligence," but opined that "[s]uch a reading of FISA would be an
unconstitutional infringement on the President's Article II authorities." Yoo
characterized FISA as merely providing a "safe harbor for electronic
surveillance," adding that it "cannot restrict the President's ability to engage
in warrantless searches that protect the national security." According to
Yoo, the ultimate test of whether the government may engage in warrantless
electronic surveillance activities is whether such conduct is consistent with
the Fourth Amendment, not whether it meets the standards of FISA. Yoo
wrote that "unless Congress made a clear statement in FISA that it sought
to restrict presidential authority to conduct warrantless searches in the



        11 As noted above, Yoo, Ashcroft, Card, and Addington declined or did not respond
to the DOJ OIG's request for interviews, and the DOJ OIG does not know how Yoo came to
deal directly with the White House on legal issues related to the PSP. In his book "War by
Other Means," Yoo wrote that "[a]s a deputy to the assistant attorney general in charge of
the office, I was a Bush Administration appointee who shared its general constitutional
philosophy.... I had been hired specifically to supervise OLC's work on [foreign affairs
and national security]." "War by Other Means," by John Yoo, at 19-20.




                                            11 

national security area - which it has not - then the statute must be
construed to avoid such a reading."12

       Yoo's analysis of this point would later raise serious concerns for
other officials in OLC and the Office of the Deputy Attorney General (ODAG)
in late 2003 and early 2004. Among other concerns, Y00 did not address
the section of FISA that creates an explicit exemption from the requirement
to obtain a judicial warrant for 15 days following a congressional declaration
of war. See 50 U.S.C. § 1811. Yoo's successors in OLC criticized this
omission in Yoo's memorandum because they believed that by including this
provision in FISA Congress arguably had demonstrated an explicit intention
to restrict the government's authority to conduct electronic surveillance
during wartime.

      Yoo's memorandum also analyzed Fourth Amendment issues raised
by the Presidential Authorizations. Yoo dismissed Fourth Amendment
concerns regarding the PSP to the extent that the Authorizations applied to
non-U.S. persons outside the United States. Regarding those aspects of the
program that involved interception of the international communications of
U.S. persons in the United States, Yoo asserted that Fourth Amendment
jurisprudence allowed for searches of persons crossing the border and that
interceptions of communications into or out of the United States fell within
the "border crossing exception." Yoo further opined that electronic
surveillance in "direct support of military operations" did not trigger
constitutional rights against illegal searches and seizures, in part because
the Fourth Amendment is primarily aimed at curbing law enforcement
abuses.

      Yoo also wrote that the activity described in the Presidential
Authorizations was "reasonable" under the Fourth Amendment and
therefore did not require a warrant. In support of this position, Yoo cited

         12 On March 2, 2009, DOJ released nine opinions written by OLC from 2001
through 2003 regarding "the allocation of authorities between the President and Congress
in matters of war and national security" containing certain propositions that no longer
reflect the views of OLC and "should not be treated as authoritative for any purpose."
Memorandum for the Files from Steven G. Bradbury, Principal Deputy Assistant Attorney
General, Office of Legal Counsel, "Re: Status of Certain OLC Opinions Issued in the
Mtermath of the Terrorist Attacks of September 11, 2001" (January 15,2009), at 1, 11.
Among these opinions was a classified February 2002 memorandum written by Yoo which
asserted that Congress had not included a clear statement in FISA that it sought to restrict
presidential authority to conduct warrantless surveillance activities in the national security
area and that the FISA statute therefore does not apply to the President's exercise of his
Commander-in-Chief authority. In Bradbury's unclassified January 15,2009,
memorandum (included among those released in March 2009), Bradbury stated that this
proposition "is problematic and questionable, given FISA's express references to the
President's authority" and is "not supported by convincing reasoning."




                                              12 

Supreme Court opinions upholding warrantless searches in a variety of
contexts, such as drug testing of employees and sobriety checkpoints to
detect drunk drivers, and in other circumstances "when special needs,
beyond the normal need for law enforcement, make the warrant and
probable-cause requirement impracticable." Veronia School Dist. 47J v.
Acton, 515 u.S. 464, 652 (1995)(as quoted in November 2,2001
Memorandum at 19). Yoo wrote that in these situations the government's
interest was found to have outweighed the individual's privacy interest, and
that in this regard "no governmental interest is more compelling than the
security of the Nation." Haig v. Agee, 435 U.S. 280, 307 (1981). According
to Yoo, the activity authorized by the Presidential Authorizations advanced
this governmental security interest.

      Yoo's legal memoranda omitted any discussion of Youngstown Sheet &
Tube Co. v. Sawyer, 343 U.S. 579 (1952), a leading case on the distribution
of government powers between the Executive and Legislative Branches.
Justice Jackson's analysis of President Truman's Article II
Commander-in-Chief authority during wartime in the Youngstown case was
an important factor in OLC's subsequent reevaluation of Yoo's opinions on
the legality of the PSP.

       Y00 also discussed in his memoranda the legal rationale for Other
Intelligence Activities authorized as part of the PSP. To the extent that
particular statutes might appear to preclude these activities, Yoo concluded
that "we do not believe that Congress may restrict the President's inherent
constitutional powers, which allow him to gather intelligence necessary to
defend the nation from direct attack."

       However, as detailed in Chapter Three of the DOJ OIG report, Yoo's
discussion of some of the Other Intelligence Activities did not accurately
describe the scope of these activities. Yoo's factual discussion of these
activities was later identified by his successors in the Office of Legal Counsel
and ODAG in late 2003 as insufficient and presenting a serious impediment
to recertification of the program as to form and legality.

       The President continued to reauthorize the PSP periodically during
late 2001 and 2002, with some modifications of the scope of the intelligence
activities being authorized. In October 2002, at Attorney General Ashcroft's
request, Yoo drafted another opinion concerning the PSP. This
memorandum, dated October 11, 2002, reiterated the same basic analysis
contained in Yoo's November 2, 2001, memorandum in support of the
legality of the PSP.

      As the only OLC official read into the PSP through early 2003, Yoo
consulted directly with White House officials about the PSP during this
period. Because the DOJ OIG was unable to interview Yoo, it could not


                                       13 

determine the exact nature and extent of these consultations. The DOJ OIG
was also unable to determine whether Attorney General Ashcroft was fully
aware of the advice Y00 was providing directly to the White House about the
PSP.

       Former Attorney General Gonzales and former OLC Assistant Attorney·
General Bybee both told the DOJ OIG that they did not know how Yoo
became responsible for analyzing the legality of the PSP. Bybee told us that
he was "surprised" and "a little disappointed" to learn through media
accounts that Yoo had worked on the PSP without Bybee's knowledge.
Bybee said that it would not be unusual for a Deputy Assistant Attorney
General such as Yoo to have direct contact with the White House for the
purpose of rendering legal advice, but that the OLC Assistant Attorney
General must be aware of all opinions that issue from OLC. Other senior
DOJ officials also criticized the assignment of a single OLC attorney to draft
the legal rationale for the program. These officials noted that OLC
traditionally adheres to a rigorous peer review process for all legal
memoranda it issues. They also cited the importance of having the OLC
Assistant Attorney General, a Senate-confirmed official accountable for the
work of that office, be aware of all OLC legal memoranda.

       Gonzales told the DOJ OIG that the Yoo opinions represented the
legal opinion of DOJ, and that it was Ashcroft's decision as to how to satisfy
his obligations as Attorney General. Gonzales told the DOJ OIG that
Ashcroft complained to the White House that it was "inconvenient" not to
have the Deputy Attorney General or Ashcroft's Chief of Staff read into the
PSP, but Gonzales also stated that he never got the sense from Ashcroft that
this affected the quality of the legal advice about the program that DOJ
provided to the White House. As noted, Ashcroft declined the DOJ OIG's
request for an interview. The DOJ OIG therefore was unable to determine
from Ashcroft whether he sought additional DOJ read-ins to assist in the
legal analysis of the program, how hard he may have pressed for these
additional read-ins, or whether he believed he was receiving adequate legal
advice about the program from Yoo alone during this early phase of the PSP.


III. 	   IMPLEMENTATION OF THE PRESIDENT'S SURVEILLANCE
         PROGRAM

         A. 	   NSA Intelligence Activities under the PSP

      According to the NSA OIG report, the first Presidential Authorization
was the product of discussions between former NSA Director Hayden and
White House officials. Hayden also consulted with NSA senior technical
experts and experienced attorneys from the NSA's Office of General Counsel.
While he consulted with NSA personnel in identifying critical intelligence



                                       14 

gaps, only Hayden knew about and participated in the development of the
Presidential Authorization by serving as a technical advisor. After the
Authorization was signed, NSA attorneys supported the lawfulness of the
resulting program. Hayden stated that DOJ did not participate in his early
meetings about the NSA's collection activities. As noted, the Attorney
General was read into the program on the same day he signed the first
Authorization as to form and legality.

      When the NSA received the first Presidential Authorization, Hayden
noted that he was assured by the signature of the Attorney General that the
program was iawful and had been reviewed by the White House and DOJ.

      After Hayden received the first Authorization, he assembled 80 to 90
people in a conference room and explained what the President had
authorized. Hayden said: "We're going to do exactly what he said and not
one photon or electron more." The NSA's purpose in implementing the PSP
was to collect foreign intelligence. According to Hayden, the activities were
targeted and focused with the purpose of "hot pursuit" of communications
entering or leaving the United States involving individuals believed to be
associated with al-Qa'ida, not to intercept conversations between people in
the United States. The intercepted communications had to be reasonably
believed to be al-Qa'ida communications, one end of which was in the
United States.

      According to the NSA OIG, the PSP had standards for targeting
al-Qa'ida. There were several layers of review, starting with an NSA
management review, and the NSA OIG conducted a review of target folders
to ensure compliance with program standards and additional management
controls.13 A sample of target folders was tested to determine whether
targeting decisions were adequately supported. Any ambiguities were
discussed with analysts and adequately resolved.

       The NSA OIG reported that the NSA's conduct of the PSP was
reviewed and monitored by the NSA Office of General Counsel and the NSA
OIG. According to the NSA OIG, NSA employees involved in the program
received tailored training and their work was overseen to ensure that all
activities were consistent with the letter and intent of the Authorization and
with the protection of civil liberties. The NSA OIG report concluded that it
found no evidence of intentional misuse of the PSP.



       13 Internal control, or management control, comprises the plans, methods, and
procedures used to meet missions, goals, and objectives. It provides reasonable assurance
that an entity is effective and efficient in its operations, reliable in its reporting, and
compliant with applicable laws and regulations.




                                             15 

       Hayden stated that although he understood that the PSP activities
were more aggressive than those available traditionally under FISA, he
believed that the PSP was less intrusive because the period of time in which
collection was conducted was, in most cases, far less than was authorized in
a typical FISC order. Additionally, the sole purpose of the overall PSP was
to detect and prevent terrorism against the United States. According to
Hayden, the program was designed to provide the NSA with the operational
agility to cover terrorism-related targets.

      B.    Access to the PSP

            1.    Executive Branch Personnel

      Knowledge of the PSP was strictly controlled and limited at the
express direction of the White House. Further information about the
number of Executive Branch employees who were read into the program is
provided in the classified report.

       As discussed below and in more detail in the DOJ OIG report, the
DOJ OIG found that overly restrictive limitations on the number of DOJ
personnel read into the program created several problems. Among other
things, these limitations prevented DOJ from adequately reviewing the PSP's
legality during the earliest phase of the program's operation. The
subsequent identification of what DOJ officials perceived to be serious
factual and legal flaws in Yoo's early legal analysis ofthe PSP also
precipitated a major dispute between DOJ and the White House over
reauthorization of the program that nearly led to the resignations of several
senior DOJ and FBI officials in March 2004. In addition, the ODNI OIG
found that the opportunity for ODNI oversight components to participate in
oversight of the PSP was limited by ODNI oversight personnel not being
granted timely access to the PSP.

            2.    Congressional Briefings

       On October 25,2001, White House officials and Hayden conducted a
briefing on the PSP for the Chairman and Ranking Member of the House
Permanent Select Committee on Intelligence, Nancy P. Pelosi and Porter J.
Goss; and the Chairman and Vice Chairman of the Senate Select Committee
on Intelligence, D. Robert Graham and Richard J. Shelby. According to the
NSA, between October 25,2001, and January 17,2007, Hayden and
current NSA Director Keith Alexander, sometimes supported by other NSA
personnel, conducted approximately 49 briefings to members of Congress
and their staff, 17 of which took place before the December 2005 media
reports regarding what was called the "Terrorist Surveillance Program."
Hayden told us that during the many PSP briefings to members of Congress
no one ever suggested that NSA should stop the program.


                                     16
            3.     Foreign Intelligence Surveillance Court Briefings

       From January 2002 to January 2006, only FISC Presiding Judge
Royce Lamberth, followed by Presiding Judge Colleen Kollar-Kotelly, were
read into the PSP. The classified report and the full DOJ OIG report
describe the circumstances under which the Presiding Judge was notified of
the existence of the PSP and read into the program, and the measures
subsequently taken to address the effect of the PSP on the government's
relationship with the FISC.

            4.     FBI Participation in the PSP

       The DOJ OIG report also describes the FBI's participation in the PSP,
particularly as a recipient of intelligence collected under the program. The
DOJ OIG addresses the challenges the FBI faced in disseminating this
information to FBI field offices for investigation without revealing the source
of the information, as well as the efforts the FBI made to improve
cooperation with the NSA to enhance the usefulness of PSP-derived
information to FBI agents. Further details about these topics are classified
and therefore cannot be discussed here. The DOJ OIG generally found that
the FBI implemented reasonable procedures for expeditiously disseminating
PSP-derived information to FBI field offices for investigation while protecting
the sources and methods by which the information was obtained. However,
the DOJ OIG also found that the highly compartmented nature of the PSP
created obstacles for the FBI's process for handling program-derived
information and understandably frustrated FBI agents responsible for
investigating the information.

            5.     CIA Participation in the PSP

       The CIA OIG report describes the CIA's participation in the PSP. CIA
officials, as PSP consumers, requested information from the program and
utilized this information in their analyses. The CIA OIG found that CIA
officials appeared to have had an adequate understanding of the
justification needed to request PSP-derived information, and that CIA
requests were adequately justified.

      Senior CIA officials, including former Directors of Central Intelligence
(DCI) Hayden and Goss, and former Acting Director McLaughlin, stated that
the PSP addressed a gap in intelligence collection. Following the terrorist
attacks on September 11, 2001, there was concern that additional acts of
terrorism would be perpetrated by terrorist cells already inside the United
States. Senior IC officials believed that providing IC analysts access to
increased signals intelligence could lead to the discovery of terrorists in the
U.S. and planned terrorist attacks. However, collection of such
communications required authorization under FISA, and there was


                                      17
widespread belief among senior IC and CIA officials that the process for
obtaining FISA authorization was too cumbersome and time consuming to
address the current threat. CIA officials stated that FISA required extensive
paperwork and high-level reviews and approvals by the DCI and the
Attorney General and the FISC did not always approve FISA applications in
a timely manner. Hayden and other senior IC officials also told the CIA OIG
that, at the time that the PSP operated, Congress had not updated FISA
since its 1978 enactment to reflect changes in communication technologies.

            6.     ODNI Participation in the PSP

       PSP-derived information was closely held within the ODNI and was
made available to a limited number of NCTC analysts for review or, if
appropriate, use in preparing NCTC analytical products. Generally, the
NCTC analysts approved for PSP access received PSP-derived information in
the form of NSA intelligence products. NCTC analysts told the ODNI OIG
that they generally obtained access to the PSP-derived information from a
secure IC database or directly from an NSA representative. NCTC analysts
told the ODNI OIG that the PSP-derived information was subject to stringent
security protections. The NCTC analysts said that they received training
regarding the proper handling of IC signals intelligence, and they reported
that they handled all such information, including PSP-derived information,
consistent with standard rules and procedures.

      c.    Impact of PSP-Derived Information on the FISA Process

       Chapters Three and Six of the DOJ OIG report describe how DOJ and
the FISC addressed the impact PSP-derived information had on the FISA
process. The DOJ OIG concluded that it was foreseeable that such
information might impact the process and that the initial delay in reading
anyone from DOJ's Office of Intelligence Policy and Review (OIPR) or the
FISC into the PSP unnecessarily jeopardized DOJ's relationship with the
Court. In addition, overly restrictive limitations on the number of OIPR
attorneys and FISC judges who were read into the program created
significant and avoidable problems of workload imbalance in the functioning
both of OIPR and the FISC. The DOJ OIG concluded that once the PSP
began to affect the functioning of the FISA process, the number of OIPR staff
and FISC judges read into the PSP to manage the program's impact should
have increased.

      D.    Discovery Issues

      The DOJ OIG reviewed DOJ's handling of PSP information with
respect to its discovery obligations in international terrorism prosecutions.
DOJ was aware as early as 2002 that information collected under the PSP
could have implications for DOJ's litigation responsibilities under Federal


                                      18 

Rule of Criminal Procedure Rule 16 and Brady v.   MC1'rylahci,37:3 0:8.83
(1963).

      Analysis of this discovery issue was first assigned f() oib DeputY
Assistant Attorney General Yoo in 2003: However, no DOJ attorneys with
terrorism prosecution responsibilities were read into the PSP until
mid-2004, and as a result DOJ continued to lack the advice of attorneys
who were best equipped to identify and examine the discovery issues in
connection with the PSP.

       Since then, DOJ has taken steps to address discovery issues with
respect to the PSP, which is discussed in the DOJ OIG classified report.
Based upon its review of DOJ's handling of these issues, the DOJ OIG
recommends that DOJ assess its discovery obligations regarding
PSP-derived information, if any, in international terrorism prosecutions.
The DOJ OIG also recommends that DOJ carefully consider whether it must
re-examine past cases to see whether potentially discoverable but
undisclosed Rule 16 or Brady material was collected under the PSP, and
take appropriate steps to ensure that it has complied with its discovery
obligations in such cases. In addition, the DOJ OIG recommends that DOJ
implement a procedure to identify PSP-derived information, if any, that may
be associated with international terrorism cases currently pending or likely
to be brought in the future and evaluate whether such information should
be disclosed in light of the government's discovery obligations under Rule 16
and Brady.


IV. 	   LEGAL REASSESSMENT OF THE PRESIDENT'S SURVEILLANCE
        PROGRAM

      Chapter Four of the DOJ OIG's report describes the period in late
2003 and early 2004 when DOJ determined that aspects of the PSP were
not supported by law and advised the President that the program should be
modified.

        A. 	   Justice Department Attorneys Become Concerned About
               the Legality of Some Activities under the PSP

      As noted above, John Yoo was the sole OLC attorney who advised
Attorney General Ashcroft and White House officials on the PSP from the
program's inception in October 2001 through Yoo's resignation from DOJ in
May 2003. Upon Yoo's departure, another DOJ official, Patrick Philbin, was
selected by the White House to be read into the PSP to assume Yoo's role as
advisor to the Attorney General concerning the program. In addition, Jack
Goldsmith replaced Jay Bybee as the Assistant Attorney General for OLC on
October 6,2003. Even though Bybee had never been read into the PSP,



                                     19 

Philbin persuaded Counsel to the Vice President David Addington to read in
Goldsmith, Bybee's replacement.

       After being read into the PSP, Goldsmith and Philbin became
concerned about the factual and legal basis for Yoo's legal memoranda
supporting the program. For example, FISA prohibits persons from
intentionally engaging in electronic surveillance "under color of law except
as authorized by statute[.]" 50 U.S.C. § 1809(a). Yoo's analysis concluded
that this provision did not implicate the legality of the PSP because FISA did
not expressly apply to wartime operations. However, Yoo's memoranda
omitted any reference to the FISA provision allowing the interception of
electronic communications without a warrant for a period of 15 days
following a congressional declaration of war. See 50 U.S.C. § 181l.
Goldsmith and Philbin were concerned that this provision contradicted Yoo's
assertion that Congress did not intend FISA to apply to wartime operations.
They also were troubled by other aspects ofYoo's legal analysis and by the
lack of an adequate factual description in his memoranda of how the PSP
operated.

      B.     OLC Begins Developing a New Legal Analysis for the PSP

       Goldsmith and Philbin began developing an analysis to more fully
address the FISA statute with respect to the PSP. This new analysis relied
on the legal argument that the Congressional Authorization for Use of
Military Force Joint Resolution (AUMF), enacted shortly after the attacks of
September 11,2001, effectively exempted some of the activities under the
PSP from FISA. However, Goldsmith and Philbin became concerned that
this revised analysis would not be sufficient to support the legality of certain
aspects of the Other Intelligence Activities that the President had authorized
under the PSP.

       Beginning in August 2003, Philbin and later Goldsmith brought their
concerns about the OLC legal opinions to Attorney General Ashcroft. With
Ashcroft's approval, Philbin began preparing a new OLC memorandum
assessing the legality of the PSP. During this period in late 2003, Goldsmith
and Philbin advised Ashcroft to continue to certify as to form and legality
the Presidential Authorizations for the PSP pending completion of the new
legal analysis.

      C.    DOJ Officials Convey Concerns to the White House

      In December 2003, Goldsmith and Philbin met with Counsel to the
Vice President Addington and White House Counsel Gonzales at the White
House to express their growing concerns about the legal underpinnings of
the program. Goldsmith said he told them that OLC was not sure the
program could survive in its current form. According to Goldsmith's


                                      20 

contemporaneous notes of these events, these discussions did not
contemplate an interruption of the program, although the White House
officials represented that they would "agree to pull the plug" if the problems
with the program were found to be sufficiently serious.

       In late January 2004, at Goldsmith's request, the White House agreed
to allow Deputy Attorney General James Comey to be read into the PSP
following Comey's confirmation as the Deputy Attorney General in December
2003. After being briefed, Comey agreed that the concerns about Yoo's legal
analysis were well-founded. 14 Comey told the DOJ OIG that of particular
concern to him and Goldsmith was the notion that Yoo's legal analysis
entailed ignoring an act of Congress, and doing so without full congressional
notification.

       D.     Conflict Between DOJ and the White House

      Comey told the DOJ OIG that he met with Attorney General Ashcroft
on March 4, 2004, to discuss the PSP and that Ashcroft agreed with Comey
and the other DOJ officials' assessment of the potential legal problems with
the PSP. Later that day, Ashcroft was struck with severe gallstone
pancreatitis and was admitted to the George Washington University Hospital
in Washington, D.C.IS

      On March 5, 2004, Goldsmith advised Comey by memorandum that
under the circumstances of Ashcroft's medical condition and
hospitalization, a "clear basis" existed for Comey to determine that "this is a
case of 'absence or disability' of the Attorney General" within the meaning of
28 U.S.C. § 508(a). The "cc" line of Goldsmith's memorandum to Comey
indicated that a copy of the memorandum was also sent to White House
Counsel Gonzales.

       Later on March 5, Gonzales called Goldsmith to request a letter from
OLC stating that Yoo's prior OLC opinions "covered the program," meaning
the PSP. Philbin told the DOJ OIG that Gonzales was not requesting a new
opinion that the program itself was legal, but only that the prior opinions
had concluded that it was. As a result of Gonzales's request, Goldsmith,
Philbin, and Comey re-examined Yoo's memoranda with a view toward
determining whether they adequately described the actual intelligence
activities of the NSA under the Authorizations. Goldsmith, Philbin, and


       14 Corney also discussed DOJ's concerns about the legality of the program with FBI
Director Mueller on March 1,2004. Mueller told the DOJ OIG that this was the first time
he had been made aware of DOJ's concerns.
      15 Ashcroft's doctors did not clear Ashcroft to resume his duties as Attorney
General until March 31, 2004.




                                            21
Corney concluded that Yoo's memoranda did not accurately describe some
of the Other Intelligence Activities that were being conducted under the
Presidential Authorizations implementing the PSP, and that the memoranda
therefore did not provide a basis for finding that these activities were legal.
             ~




      On Saturday, March 6, Goldsmith and Philbin, with Corney's
concurrence, met with Addington and Gonzales at the White House to
convey their conclusions that certain activities in the PSP should cease.
According to Goldsmith's notes, Addington and Gonzales "reacted calmly
and said they would get back with us."

       On Sunday, March 7,2004, Goldsmith and Philbin met again with
Addington and Gonzales at the White House. According to Goldsmith, the
White House officials informed Goldsmith and Philbin that they disagreed
with their interpretation of Yoo's memoranda and on the need to change any
of the NSA's intelligence activities under the PSP.

       On March 9 Gonzales called Goldsmith to the White House in an
effort to persuade him that his criticisms of Yoo's memoranda were incorrect
and that Yoo's analysis provided sufficient legal support for the program.
After Goldsmith disagreed, Gonzales next argued for a "30-day bridge" to get
past the expiration of the current Presidential Authorization on March 11,
2004. Gonzales reasoned that Ashcroft, who was still hospitalized, was not
in any condition to sign a renewal of the Authorization, and that a "30-day
bridge" would move the situation to a point where Ashcroft would be well
enough to approve the program. Goldsmith told Gonzales he could not
agree to recommend an extension because aspects of the program lacked
legal support.

       At noon that day, another meeting was held in the White House office
of Andrew Card, the President's Chief of Staff. According to Director
Mueller's notes, Mueller, Card, Vice President Cheney, CIA Deputy Director
McLaughlin, Hayden, Gonzales, and other unspecified officials were present.
Corney, Goldsmith, and Philbin were not invited to this meeting. After a
presentation on the value of the PSP by NSA and CIA officials, it was then
explained to the group that Corney "has problems" with some activities
authorized under the program. Mueller's notes state that Vice President
Cheney suggested that "the President may have to reauthorize without [the]
blessing of DOJ," to which Mueller responded, "I could have a problem with
that," and that the FBI would "have to review legality of continued
participation in the program."

      Another meeting at the White House was held on March 9, this time
with Corney, Goldsmith, and Philbin present. Gonzales told the DOJ OIG
that the meeting was held to make sure that Corney understood what was at
stake with the PSP and to demonstrate the program's value. Corney said


                                      22 

Vice President Cheney stressed that the PSP was "critically important" and
warned that Corney would risk "thousands" of lives if Corney did not agree to
recertify the program. Corney said he stated at the meeting that he, as
Acting Attorney General, could not support reauthorizing certain intelligence
activities unless they were modified. According to Corney, the White House
officials said they could not agree to that modification.

      Goldsmith, Philbin, and Corney met in the early afternoon of
March 10, 2004, to discuss the meeting at the White House the day before
and how DOJ should proceed. Goldsmith and Philbin confirmed their
position to Corney that some of the Other Intelligence Activities under the
PSP could not be legally supported and would have to be changed or shut
down.

       Gonzales told the DOJ OIG that after President Bush was advised of
the results of the March 9, 2004, meeting, the President instructed Vice
President Cheney on the morning of Wednesday, March 10, to call a meeting
with congressional leaders to advise them of the impasse with DOJ. On the
afternoon of March 10, at approximately 4:00 or 5:00 p.m., Gonzales and
other White House and intelligence agency officials, including Vice President
Cheney, Card, Hayden, McLaughlin, and Tenet, convened an "emergency
meeting" with congressional leaders in the White House Situation Room.
The congressional leaders in attendance were Senate Majority and Minority
Leaders William H. "Bill" Frist and Thomas A. Daschle; Senate Select
Committee on Intelligence Chairman Pat Roberts and Vice Chairman Jay
Rockefeller; Speaker of the House Dennis Hastert and House Minority
Leader Nancy Pelosi; and House Permanent Select Committee on
Intelligence Chair Porter Goss and Ranking Member Jane Harman. This
congressional group was known informally as the "Gang of Eight." No
officials from DOJ were asked to attend the meeting.

      According to Gonzales's notes of the meeting, individual congressional
leaders expressed thoughts and concerns related to the program. However,
Gonzales told the DOJ OIG that the consensus of the congressional leaders
was that the program should continue. 16


         16 When Gonzales testified before the Senate Judiciary Committee on July 24,
2007, he essentially described the congressional leaders' reactions to the March 10, 2004,
"Gang of Eight" briefing as he did in his handwritten notes of the briefing, stating, "The
consensus in the room from the congressional leadership is that we should continue the
activities, at least for now." However, after Gonzales testified Representative Pelosi, Senator
Rockefeller, and Senator Daschle issued statements sharply disputing Gonzales's
characterization of their statements at the March 10, 2004, meeting, stating that there was
no consensus at the meeting that the program should proceed. Pelosi's office also issued a
statement that she "made clear my disagreement with what the White House was asking"
concerning the program. The DOJ OIG did not attempt to interview the congressional
                                                                                        (Cont'd.)


                                               23
      Gonzales told the DOJ OIG that following the meeting with the
congressional leaders on March 10, President Bush instructed him and
Card to go to the George Washington University Hospital to speak to
Ashcroft, who was in the intensive care unit recovering from surgery.

      According to notes from Ashcroft's FBI security detail, at 6:20 p.m.
that evening Card called the hospital and spoke with an agent in Ashcroft's
security detail, advising him that President Bush would be calling shortly to
speak with Ashcroft. Ashcroft's wife told the agent that Ashcroft would not
accept the call. Ten minutes later, the agent called Ashcroft's Chief of Staff
David Ayres at DOJ to request that Ayres speak with Card about the
President's intention to call Ashcroft. The agent conveyed to Ayres Mrs.
Ashcroft's desire that no calls be made to Ashcroft for another day or two.
However, at 6:45 p.m., Card and the President called the hospital and,
according to the agent's notes, "insisted on speaking [with Attorney General
Ashcroft]." According to the agent's notes, Mrs. Ashcroft took the call from
Card and the President and was informed that Gonzales and Card were
coming to the hospital to see Ashcroft regarding a matter involving national
security.

       At approximately 7:00 p.m., after learning that Gonzales and Card
were on their way to the hospital, Ayres relayed this information to Corney.
According to Corney's May 2007 testimony before the Senate Judiciary
Committee, Corney called his Chief of Staff and directed him to "get as many
of my people as possible to the hospital immediately." Corney next called
FBI Director Mueller and told him that Gonzales and Card were on their way
to the hospital to see Ashcroft, and that Ashcroft was in no condition to
receive guests, much less make a decision about whether to recertify the
PSP. According to Mueller's notes, Corney asked Mueller to come to the
hospital to "witness [the] condition of AG." Mueller told Corney he would go
to the hospital right away.

      Philbin said he was leaving work that evening when he received a call
from Corney, who told Philbin that he needed to get to the hospital right
away because Gonzales and Card were on their way there "to get Ashcroft to
sign something." Corney also directed Philbin to call Goldsmith and tell him
what was happening.

       Corney arrived at the hospital between 7: 10 and 7:30 p.m. In his
congressional testimony, Corney said he ran up the stairs with his security
detail to Ashcroft's floor, and he entered Ashcroft's room, which he
described as darkened, and found Ashcroft lying in bed and his wife

leaders and obtain their recollections as to what was said at this meeting because this was
beyond the scope of its review.




                                            24
standing by his side. Corney said he began speaking to Ashcroft, and that it
was not clear that Ashcroft could focus and that he "seemed pretty bad
off[. ]"

       Goldsmith and Philbin arrived at the hospital within a few minutes of
each other. Corney, Goldsmith, and Philbin met briefly in an FBI "command
post" that had been set up in a room adjacent to Ashcroft's room. Moments
later, the command post was notified that Card and Gonzales had arrived at
the hospital and were on their way upstairs to see Ashcroft. Corney,
Goldsmith, and Philbin entered Ashcroft's room and, according to
Goldsmith's notes, Corney and the others advised Ashcroft "not to sign
anything."

       Gonzales and Card entered Ashcroft's hospital room at 7:35 p.m.,
according to the FBI agent's notes. The two stood across from Mrs. Ashcroft
at the head of the bed, with Corney, Goldsmith, and Philbin behind them.
Gonzales told the DOJ OIG that he carried with him in a manila envelope
the March 11, 2004, Presidential Authorization for Ashcroft to sign.
According to Philbin, Gonzales first asked Ashcroft how he was feeling and
Ashcroft replied, "Not well." Gonzales then said words to the effect, "You
know, there's a reauthorization that has to be renewed ...." Gonzales told
us that he may also have told Ashcroft that White House officials had met
with congressional leaders "to pursue a legislative fix."

      Corney testified to the Senate Judiciary Committee that at this point
Ashcroft told Gonzales and Card "in very strong terms" about his legal
concerns with the PSP, which Corney testified Ashcroft drew from his
meeting with Corney about the program a week earlier. Corney testified that
Ashcroft next stated:

      "But that doesn't matter, because I'm not the Attorney General.
      There is the Attorney General," and he pointed to me - I was
      just to his left. The two men [Gonzales and Card] did not
      acknowledge me; they turned and walked from the room.

      Records kept by the Attorney General's security detail indicate that
Gonzales and Card left Ashcroft's room at 7:40 p.m. Moments after
Gonzales and Card departed, Mueller arrived at the hospital. At
approximately 8:00 p.m., Mueller went into Ashcroft's room for 5 to 10
minutes. Mueller wrote in his notes: "AG in chair; is feeble, barely
articulate, clearly stressed."

      Before leaving the hospital, Corney received a call from White House
Chief of Staff Card. Corney testified that Card was very upset and
demanded that Corney come to the White House immediately. Corney told
Card that he would meet with him, but not without a witness, and that he


                                     25 

intended that witness to be DOJ Solicitor General Ted Olson. Corney and
Olson subsequently went to the White House at about 11 :00 p.m. that
evening and met with Gonzales and Card. Gonzales told the DOJ OIG that
little more was achieved at this meeting other than a general
acknowledgement that a "situation" continued to exist because of the
disagreement between DOJ and the White House regarding legal
authorization for the program.

       E. 	    White House Counsel Certifies Presidential Authorization
               Without Department of Justice Concurrence

       On the morning of March 11,2004, with the Presidential
Authorization set to expire, President Bush signed a new Authorization for
the PSP. In a departure from the past practice of having the Attorney
General certify the Authorization as to form and legality, the March 11
Authorization was certified by White House Counsel Gonzales. The
March 11 Authorization also differed markedly from prior Authorizations in
three other respects. It explicitly asserted that the President's exercise of
his Article II Commander-in-Chief authority displaced any contrary
provisions of law, including FISA. It clarified the description of certain
Other Intelligence Activities being conducted under the PSP to address
questions regarding whether such activities had actually been authorized
explicitly in prior Authorizations. It also stated that in approving the prior
Presidential Authorizations as to form and legality, the Attorney General
previously had authorized the same activities now being approved under the
March 11 Authorization. I7

     White House Chief of Staff Card informed Corney by telephone on the
morning of March 11,2004, that the President had signed the new
Authorization that morning. At approximately noon, ,Gonzales called
Goldsmith to inform him that the President, in issuing the Authorization,
had made an interpretation of law concerning his authorities and that DOJ
should not act in contradiction of the President's determinations.

       Also at noon on March 11, Director Mueller met with Card at the
White House. According to Mueller's notes, Card told Mueller that if no
"legislative fix" could be found by May 6, 2004, when the March 11
Authorization was set to expire, the program would be discontinued.

        17 The DOJ OIG determined that this statement subsequently was removed from
future Authorizations after Ashcroft complained to Gonzales that the statement was
"inappropriate." In a May 20, 2004 memorandum, Ashcroft wrote that it was not until
Philbin and later Goldsmith explained to him that aspects of the NSA's Other Intelligence
Activities were not accurately described in the prior Authorizations that he realized that he
had been certifying the Authorizations prior to March 2004 based on a misimpression of
those activities.




                                              26
Mueller wrote that he told Card that the failure to have DOJ representation
at the congressional briefing and the attempt to have Ashcroft certify the
Authorization without going through Corney "gave the strong perception that
the [White House] was trying to do an end run around the Acting [Attorney
General] whom they knew to have serious concerns as to the legality of
portions of the program." Card responded that he and Gonzales were
unaware at the time of the hospital visit that Corney was the Acting Attorney
General, and that they had only been following the directions of the
President.

       F.      Department of Justice and FBI Officials Consider Resigning

       Several senior DOJ and FBI officials considered resigning after the
Presidential Authorization was signed without DOJ's concurrence. Corney
told the DOJ OIG that he drafted a letter of resignation because he believed
it was impossible for him to remain with DOJ if the President would do
something DOJ said was not legally supportable. Corney also testified that
Ashcroft's Chief of Staff David Ayres believed Ashcroft also was likely to
resign and thus Ayres urged Corney to wait until Ashcroft was well enough
to resign with him.Is

      Goldsmith told the DOJ OIG he drafted a resignation letter at around
the same time as Corney. According to his contemporaneous notes,
Goldsmith cited the "shoddiness" of the prior OLC legal review, the
"over-secrecy" of the PSP, and the "shameful" incident at the hospital as
among his grievances.

       At approximately 1:30 a.m. on March 12, 2004, FBI Director Mueller
drafted by hand a letter stating, in part: "[A]fter reviewing the plain
language of the FISA statute, and the order issued yesterday by the
President ... and in the absence of further clarification of the legality of the
program from the Attorney General, I am forced to withdraw the FBI from
participation in the program. Further, should the President order the
continuation of the FBI's participation in the program, and in the absence of
further legal advice from the AG, I would be constrained to resign as
Director of the FBI." Mueller told the DOJ OIG that he planned on having
the letter typed and then tendering it, but that based on subsequent events
his resignation was not necessary.



         18 In written responses to Senator Charles Schumer following his testimony, Corney
wrote that he believed that several senior DOJ officials, including Chuck Rosenberg, Daniel
Levin, James Baker, David Ayres, and Deputy Chief of Staff to the Attorney General David
Israelite, were also prepared to resign. Corney wrote that he believed that "a large portion"
of his staff also would have resigned if he had.




                                             27 

      On the morning of March 12,2004, Corney and Mueller attended the
regular daily threat briefing with the President in the Oval Office. Corney
said that following the briefing President Bush called him into the
President's private study for an "unscheduled meeting." Corney told the
President of DOJ's legal concerns regarding the PSP. According to Corney,
the President's response indicated that he had not been fully informed of
these concerns. Corney told the President that the President's staff had
been advised of these issues "for weeks." According to Corney, the President
said that he just needed until May 6 (the date of the next Authorization),
and that if he could not get Congress to fix FISA by then he would shut
down the program. The President emphasized the importance of the
program and that it "saves lives."

       The President next met with Mueller. According to Mueller's notes,
Mueller told the President of his concerns regarding the FBI's continued
participation in the program without an opinion from the Attorney General
as to its legality, and that he was considering resigning if the FBI were
directed to continue to participate without the concurrence of the Attorney
General. Mueller wrote that he explained to the President that he had an
"independent obligation to the FBI and to DOJ to assure the legality of
actions we undertook, and that a presidential order alone could not do
that." According to Mueller's notes, the President then directed Mueller to.
meet with Corney and other PSP principals to address the legal concerns so
that the FBI could continue participating in the program "as appropriate
under the law."

       On the morning of March 12,2004, Corney decided not to direct the
FBI to cease cooperating with the NSA in conjunction with the program.
Corney's decision is documented in a one-page memorandum from
Goldsmith to Corney in which Goldsmith explained that the President, as
Commander in Chief and Chief Executive with the constitutional duty to
"take care that the laws are faithfully executed," made a determination that
the PSP, as practiced, was lawful. Goldsmith concluded that this
determination was binding on the entire Executive Branch, including Corney
in his exercise of the powers of the Attorney General.

      On March 12,2004 an interagency working group led by OLC was
convened to continue reanalyzing the legality of the PSP. In the days that
followed, Goldsmith continued to express doubt that a viable legal rationale
could be found for some of the Other Intelligence Activities being conducted
under the PSP.

      On March 16,2004 Corney drafted a memorandum to White House
Counsel Gonzales setting out his advice to the President. According to the
memorandum, Corney advised that DOJ remained unable to find a legal
basis to support certain Other Intelligence Activities that had been


                                     28 

authorized as part of the program and that such activities should be
discontinued immediately. Comey cautioned that he believed some ongoing
activities under the program raised "serious issues" about congressional
notification, "particularly where the legal basis for the program is the
President's decision to assert his authority to override an otherwise
applicable Act of Congress."

      Gonzales replied by letter on the evening of March 16. The letter
stated, in part:

      Your memorandum appears to have been based on a
      misunderstanding of the President's expectations regarding the
      conduct of the Department of Justice. While the President was,
      and remains, interested in any thoughts the Department of
      Justice may have on alternative ways to achieve effectively the
      goals of the activities authorized by the Presidential
      Authorization of March 11,2004, the President has addressed
      definitively for the Executive Branch in the Presidential
      Authorization the interpretation of the law.

      G.    White House Agrees to Modify the PSP

       Notwithstanding Gonzales's letter, on March 17, 2004 the President
decided to modify certain PSP intelligence-gathering activities and to
discontinue certain Other Intelligence Activities that DOJ believed were
legally unsupported. The President's directive was expressed in two
modifications to the March 11, 2004 Presidential Authorization.

       On May 6,2004 Goldsmith and Philbin completed an OLC legal
memorandum assessing the legality of the PSP as it was operating at that
time. The lOB-page memorandum traced the history of the program and
analyzed the legality of all of the intelligence activities conducted under the
program in light of applicable statutes, Executive Orders, cases, and
constitutional provisions. Much of the legal reasoning in the May 6, 2004
OLC memorandum was publicly released by DOJ in a "White Paper" issued
after one aspect of the program was revealed in The New York Times and
publicly confirmed by the President in December 2005 as the Terrorist
Surveillance Program. The OLC memorandum stated that the Authorization
for Use of Military Force (AUMF) passed by Congress shortly after the
attacks of September 11, 2001 gave the President authority to use both
domestically and abroad "all necessary and appropriate force," including
signals intelligence capabilities, to prevent future acts of international
terrorism against the United States. According to the memorandum, the
AUMF was properly read as an express authorization to conduct targeted
electronic surveillance against al-Qa'ida and its affiliates, the entities



                                      29 

responsible for attacking the United States, thereby supporting the
President's directives to conduct these activities under the PSP.

       H. 	   Department of Justice OIG Conclusions

       The DOJ OIG concluded that it was extraordinary and inappropriate
that a single DOJ attorney, John Yoo, was relied upon to conduct the initial
legal assessment of the PSP, and that the lack of oversight and review of
Yoo's work, as customarily is the practice of OLC, contributed to a legal
analysis of the PSP that at a minimum was factually flawed. Deficiencies in
the legal memoranda became apparent once additional DOJ attorneys were
read into the program in 2003 and when those attorneys sought a greater
understanding of the PSP's operation. The DOJ OIG concluded that the
White House's strict controls over DOJ access to the PSP undermined DOJ's
ability to perform its critical legal function during the PSP's early phase of
operation.

      The DOJ OIG also concluded that the circumstances plainly called for
additional DOJ resources to be applied to the legal review of the program
and that it was the Attorney General's responsibility to be aware of this need
and to take steps to address it. Ashcroft's request during this period that
his chief of staff David Ayres and Deputy Attorney General Larry Thompson
be read into the program was not approved. However, the DOJ OIG could
not determine whether Attorney General Ashcroft aggressively sought
additional read-ins to assist with DOJ's legal review of the program during
this period because Ashcroft did not agree to be interviewed.


V. 	   TRANSITION OF CERTAIN PROGRAM ACTIVITIES TO FOREIGN
       INTELLIGENCE SURVEILLANCE COURT ORDERS

       Certain activities that were originally authorized as part of the PSP
have subsequently been authorized under orders issued by the Foreign
Intelligence Surveillance Court (FISC). The activities transitioned in this
manner included the interception of certain international communications
that the President publicly described as the "Terrorist Surveillance
Program."

      As a result of this transition, the President decided not to reauthorize
these activities and the final Presidential Authorization expired on February
1, 2007. The White House stated that work on the transition of authority
over a two-year period addressed Administration concerns about preserving
the speed and agility that the Terrorist Surveillance Program provided.

      The transition of certain PSP-authorized activities to FISC orders is
described in detail in Section 5 of the classified report and Chapter Five of



                                      30 

the DOJ OIG Report. Further details regarding this transition are classified
and therefore cannot be addressed in this unclassified report.

       In August 2007, the Protect America Act was enacted, amending FISA
to address the government's ability to conduct electronic surveillance in the
United States of persons reasonably believed to be located outside the
United States. This legislation expired in early 2008, and in July 2008 the
FISA Amendments Act of 2008 was enacted. This latter law authorized the
government to intercept inside the United States any communications of
non-U.S. persons reasonably believed to be located outside the United
States, provided a significant purpose of the acquisition pertains to foreign
intelligence. This legislation gave the government even broader authority to
intercept international communications than did the provisions of the
Presidential Authorizations governing the activities that the President
acknowledged in December 2005 as the Terrorist Surveillance Program.

       The DOJ OIG review concluded that several considerations favored
initiating the process of transitioning the PSP to FISA authority earlier than
had been done, especially as the program became less a temporary response
to the September 11 terrorist attacks and more a permanent surveillance
tool. These considerations included the PSP's effect on privacy interests of
U.S. persons, the instability of the legal reasoning on which the program
rested for several years, and the substantial restrictions placed on FBI
agents' access to and use of program-derived information due to the highly
classified status of the PSP.


VI. 	   IMPACT OF THE PRESIDENT'S SURVEILLANCE PROGRAM ON
        INTELLIGENCE COMMUNITY COUNTERTERRORISM EFFORTS

        A. 	   NSA's Assessment of the PSP

      The NSA OIG reported that Hayden, referring to portions of the PSP in
2005, said there had probably been no communications more important to
NSA efforts to defend the nation than those involving al-Qa'ida. NSA
collected communications when one end was inside the United States and
one end was associated with al-Qa'ida or terrorist groups associated with
al Qa'ida in order to detect and prevent attacks inside the United States.
Hayden stated that "the program in this regard has been successful."
During the May 2006 Senate hearing on his nomination to be CIA Director,
Hayden said that, had the PSP been in place before the September 2001
attacks, hijackers Khalid Almihdhar and Nawaf Alhazmi almost certainly
would have been identified and located.

      In May 2009, Hayden told NSA OIG that the value of the Program was
in knowing that NSA signals intelligence activities under the PSP covered an
important "quadrant" of terrorist communications. NSA's Deputy Director

                                      31 

echoed Hayden's comment when he said that the value of the PSP was in
the confidence it provided that someone was looking at the seam between
the foreign and domestic intelligence domains.

      B.    DOJ OIG's Assessment of the PSP

       In 2004 and 2006, the FBI's Office of General Counsel (OGC)
attempted to assess the value of PSP information on FBI counterterrorism
efforts. Neither of these efforts represented a comprehensive assessment of
the PSP's value. The FBI conducted a more comprehensive survey of the
impact of PSP-derived information, also in 2006. The results of these
surveys are summarized in the DOJ OIG Report. Based in part on the
results of one study, FBI management, including Director Mueller and
Deputy Director John Pistole, concluded that the PSP was "of value."

       The DOJ OIG sought as part of its review to assess the role of
PSP-derived information and its value to the FBI's overall counterterrorism
efforts. Director Mueller told the DOJ OIG that he believes the PSP was
useful. Mueller said that the FBI must follow every lead it receives in order
to prevent future terrorist attacks and that to the extent such information
can be gathered and used legally it must be exploited. Mueller also stated
that he "would not dismiss the potency of a program based on the
percentage of hits."

      The DOJ OIG interviewed FBI officials, agents, and analysts
responsible for handling PSP information about their experiences with the
program. These assessments, more fully described in Chapter Six of the
DOJ OIG's report, generally were supportive of the program as "one tool of
many" in the FBI's anti-terrorism efforts that "could help move cases
forward." Even though most PSP leads were determined not to have any
connection to terrorism, many of the FBI witnesses believed the mere
possibility of the leads producing useful information made investigating the
leads worthwhile.

      However, the DOJ OIG also found that the exceptionally
compartmented nature of the program created some frustration for FBI
personnel. Some agents and analysts criticized the PSP-derived information
they received for providing insufficient details, and the agents who managed
counterterrorism programs at the FBI field offices the DOJ OIG visited said
the FBI's process for disseminating PSP-derived information failed to
adequately prioritize the information for investigation.

       The DOJ OIG also examined several cases that have frequently been
cited as examples of the PSP's contribution to the IC's counterterrorism
efforts. These assessments, more fully described in Chapter Six of the DOJ




                                      32 

OIG's report, generally were supportive of the program as "one tool of many"
in the FBI's anti-terrorism efforts.

       In sum, the DOJ OIG found it difficult to assess or quantify the
overall effectiveness of the PSP program as it relates to the FBI's
counterterrorism activities. However, based on the interviews conducted
and documents reviewed, the DOJ OIG concluded that although
PSP-derived information had value in some counterterrorism investigations,
it generally played a limited role in the FBI's overall counterterrorism efforts.
The reasons for this conclusion are classified and are described in the
classified report and Chapter Six of the DOJ OIG report.

      As noted above, certain activities that were originally authorized as
part of the PSP have subsequently been authorized under orders issued by
the FISC. The DOJ OIG believes that DOJ and other IC agencies should
continue to assess the value of information derived from such activities to
the government's counterterrorism efforts.

      C.     CIA OIG's Assessment of the PSP

     The CIA OIG reviewed the impact of the PSP on the CIA's
counterterrorism efforts.

       The CIA OIG reported that senior administration officials considered
the PSP to be a valuable counterterrorism tool. In his December 2005 press
conference, President Bush also said that there was an on-going debate in
Washington, D.C. that criticized his, and previous, administrations for not
"connecting the dots" prior to the attacks of September 11, 2001. He went
on to say that the USA PATRIOT Act and the NSA program (the PSP) are
helping to connect the dots as best as his administration possibly can.
During a December 2005 press briefing, Hayden said that information had
been obtained through this program that would not otherwise have been
available. Senior CIA officials also told the CIA OIG that they had received
PSP reporting with information that was previously unavailable. One senior
official told the CIA OIG that the program eliminated some of the
impediments that the CIA had encountered in accessing and analyzing
communications between foreign and domestic locations. Another said that
the PSP was a key resource, and without it there would have been a missing
piece of the picture.

       The CIA OIG determined that the CIA did not implement procedures
to assess the usefulness of the product of the PSP and did not routinely
document whether particular PSP reporting had contributed to successful
counterterrorism operations. CIA officials, including Hayden, told the CIA
OIG that PSP reporting was used in conjunction with reporting from other
intelligence sources; consequently, it is difficult to attribute the success of


                                       33 

particular counterterrorism case exclusively to the PSP. In a May 2006
briefing to the Senate Select Committee on Intelligence, a senior CIA official
said that PSP reporting was rarely the sole basis for an intelligence success,
but that it frequently played a supporting role. He went on to state that the
program was an additional resource to enhance the CIA's understanding of
terrorist networks and to help identify potential threats to the U.S.
homeland. Other officials told the CIA OIG that the PSP was one of many
tools available to them, and that the tools were often used in combination.

       NSA disseminated PSP-derived information in its normal reporting
channels when it could be done without revealing the source of the
information. As such, CIA officers, even those read into the program, would
have been unaware of the full extent of PSP reporting. In the course of this
review, the CIA OIG learned of numerous PSP reports that provided leads.
However, because there is no means to comprehensively track how PSP
information was incorporated into CIA analysis, officials were able to provide
only limited information on how program reporting contributed to
successful operations, and the CIA OIG was unable to independently draw
any conclusion on the overall effectiveness of the program to the CIA.

      The CIA OIG determined that several factors hindered the CIA in
making full use of the product of the PSP. Many CIA officials stated that too
few CIA personnel at the working level were read into the PSP. At the
program's inception, a disproportionate number' of the CIA personnel who
were read into the PSP were senior CIA managers. According to one CIA
manager, the tight control over access to the PSP prevented some officers
who could have made effective use of the program reporting from being read
in. Another official stated that the disparity between the number of senior
CIA managers read into PSP and the number of working-level CIA personnel
resulted in too few CIA personnel to fully utilize PSP information for
targeting and analysis.

       Officials also told the CIA OIG that working-level CIA analysts and
targeting officers who were read into the PSP had too many competing
priorities, and too many other information sources and analytic tools
available to them, to fully utilize PSP reporting. Officials also stated that
much of the PSP reporting was vague or without context, which led analysts
and targeting officers to rely more heavily on other information sources and
analytic tools, which were more easily accessed and timely than the PSP.

       CIA officers also told the CIA OIG that the PSP would have been more
fully utilized if analysts and targeting officers had obtained a better
understanding of the program's capabilities. There was no formal training
on the use of the PSP beyond the initial read-in to the program. Many CIA
officers stated that the instruction provided in the read-in briefing was not
sufficient and that they were surprised and frustrated by the lack of


                                      34 

additional guidance. Some officers told the CIA OIG that there was
insufficient legal guidance on the use of PSP-derived information.

      The CIA OIG concluded that the factors that hindered the CIA in
making full use of the PSP might have been mitigated if the CIA had
designated an individual at an appropriate level of managerial authority who
possessed knowledge of both the PSP and CIA counterterrorism activities to
be responsible and accountable for overseeing CIA involvement in the
program.

      D.    ODNI's Assessment of the PSP

       Hayden told the PSP IG Group that during his tenure as Director of
the NSA, he sought to disseminate PSP information within the IC while also
protecting the PSP as the source of the information. Hayden said this policy
likely resulted in IC analysts not having a full appreciation of the PSP's
value because they likely did not realize that some NSA reporting was
derived from the PSP. NCTC analysts confirmed that they often did not
know if the NSA intelligence available to them was derived from the PSP.
The NCTC analysts said they understood that NSA marked PSP information
in a manner that protected the source of the information.

       On those occasions when the NCTC analysts knew that a particular
NSA intelligence product was derived from the PSP, the analysts said they
reviewed the PSP information in the same manner as other NSA intelligence
products and, if appropriate, incorporated the PSP information into
analytical products being prepared for the DNI and other senior intelligence
officials. NCTC analysts with access to PSP information told the ODNI OIG
that they had broad access to a wide variety of high-quality and fully
evaluated terrorism related intelligence, including some of the most
sensitive and valuable terrorism intelligence available to the IC. In this
context, NCTC analysts characterized the PSP information as being a useful
tool, but noted that the information was only one of several valuable sources
of information available to them. During ODNI OIG interviews, some NCTC
analysts and ODNI personnel described the PSP information as "one tool in
the tool box" or used equivalent descriptions to explain their view that the
PSP information was not of greater value than other sources of intelligence.
The NCTC analysts noted that the NSA policy protecting the source of the
PSP information would have resulted in them not fully understanding the
value of the PSP information.

      Hayden said the PSP information allowed IC leaders to make valuable
judgments regarding the allocation of national security resources. Hayden
described the PSP as an "early warning system" for terrorist threats.
Hayden told the ODNI OIG that the PSP was extremely valuable in
protecting the United States from an al-Qa'ida terrorist attack. He cited


                                     35 

several examples of where he said the PSP information was used to disrupt
al-Qa'ida operatives or assist in terrorism investigations.

      E. 	   Intelligence Community Activities Supported by the PSP

       Most IC officials interviewed by the PSP IG Group had difficulty citing
specific instances where PSP reporting had directly contributed to
counterterrorism successes. Although it was difficult for a variety of
reasons already discussed to independently identify instances where PSP
reporting contributed to successful counterterrorism efforts, there are
several cases identified by IC officials and in IC documentation where PSP
reporting may have contributed to a counterterrorism success. These cases
cannot be discussed in this unclassified report, but are described in the
classified report and accompanying individual OIG reports.


VII. 	 PUBLIC STATEMENTS ABOUT THE PRESIDENT'S SURVEILLANCE
       PROGRAM

       As noted above, aspects of the PSP were first disclosed publicly in a
series of articles in The New York Times in December 2005. Subsequently,
Attorney General Gonzales was questioned about NSA surveillance activities
in two public hearings before the Senate Judiciary Committee in
February 2006 and July 2007. As part of its review, the DOJ OIG examined
whether Attorney General Gonzales made false, inaccurate, or misleading
statements to Congress related to the PSP in those hearings.

      Through media accounts and former Deputy Attorney General
Corney's Senate Judiciary Committee testimony in May 2007, it was publicly
revealed that DOJ and the White House had a major disagreement related to
the PSP in March 2004. As discussed in Section IV of this unclassified
report, this dispute - which resulted in the visit to Attorney General
Ashcroft's hospital room by Gonzales and Card and brought several senior
DOJ and FBI officials to the brink of resignation - concerned certain of the
Other Intelligence Activities that were different from the communication
interception activities that the President later publicly acknowledged as the
Terrorist Surveillance Program, but that had been implemented through the
same Presidential Authorizations.

       In testimony before the Senate Judiciary Committee, Gonzales stated
that the dispute at issue between DOJ and the White House did not relate
to the Terrorist Surveillance Program that the President had confirmed, but
rather pertained to other intelligence activities. The DOJ OIG concluded
that this testimony created the misimpression that the dispute concerned
activities entirely unrelated to the Terrorist Surveillance Program, which
was not accurate. As previously noted, both activities had been authorized
by the President in a single Presidential Authorization.

                                      36
       In addition, the DOJ OIG concluded that Gonzales's testimony that
DOJ attorneys did not have "reservations" or "concerns" about the program
the "President has confirmed" (the Terrorist Surveillance Program) was
incomplete and confusing. As detailed in Chapter Four of the DOJ OIG
report, there also was a dispute about this portion of the program.
Although this dispute was not the subject of the hospital room confrontation
or the threatened resignations, DOJ's concerns over this issue were
communicated to the White House in several meetings over a period of
months prior to and including March 2004 before the issue was resolved.

       The DOJ OIG recognized that Attorney General Gonzales was in the
difficult position of testifying before the Senate Judiciary Committee about a
highly classified program in an open forum. However, the DOJ OIG
concluded that Gonzales, as a participant in the March 2004 dispute
between the White House and DOJ and, more importantly, as the nation's
chief law enforcement officer, had a duty to balance his obligation not to
disclose classified information with the need not to be misleading in his
testimony about the events that nearly led to resignations of several senior
officials at DOJ and the FBI. The DOJ OIG concluded that Gonzales did not
intend to mislead Congress, but it found that his testimony was confusing,
inaccurate, and had the effect of misleading those who were not
knowledgeable about the program.


VIII. CONCLUSION

       Pursuant to the FISA Amendments Act of 2008, the Inspectors
General of the DOJ, DoD, ODNI, NSA, and CIA conducted reviews of the
PSP. In this report, the classified report, and the accompanying individual
reports of the participating IGs, we describe how, following the terrorist
attacks of September 11, 2001, the President directed that the NSA's signals
intelligence collection capabilities be used to detect and prevent acts of
terrorism within the United States.

       Pursuant to this authority the NSA conducted new intelligence
activities, including the collection of the content of communications into and
out of the United States, where one party to the communication was
reasonably believed to be a member of al-Qa'ida or its affiliates. The NSA
analyzed this information for dissemination as leads to the IC, principally to
the CIA and the FBI. As described in the IG reports, the scope of this
collection authority changed over the course of the PSP.

      The IG reports describe the role of each of the participating agencies
in the PSP, including the NSA's management and oversight of the collection
and analysis process, the CIA's and FBI's use of the PSP-derived intelligence
in their counterterrorism efforts, the ODNI's involvement in the program by


                                      37 

providing periodic threat assessments and using the program intelligence to
produce analytical products, and DOJ's role in analyzing and certifying the
legality of the PSP. With the exception of the NSA, the DoD had limited
involvement in the PSP.

       The IG reports also describe the conflicting views surrounding the
legality of aspects of the PSP during 2004, the confrontation between
officials from DOJ and the White House about the legal basis for parts of the
program, as well as the resolution of that conflict. The ensuing transition of
the PSP from presidential authority to statutory authority under FISA is also
described in the IG reports.

       The IGs also examined the impact of PSP information on
counterterrorism efforts. Many senior IC officials believe that the PSP filled
a gap in intelligence collection thought to exist under the FISA statute
shortly after the al-Qa'ida terrorist attacks against the United States.
Others within the IC, including FBI agents, CIA analysts and officers, and
other officials had difficulty evaluating the precise contribution of the PSP to
counterterrorism efforts because it was most often viewed as one source
among many available analytic and intelligence-gathering tools in these
efforts. The IG reports describe several examples of how PSP-derived
information factored into specific investigations and operations.

      Finally, the collection activities pursued under the PSP, and under
FISA following the PSP's transition to that authority, involved
unprecedented collection activities. We believe the retention and use by IC
organizations of information collected under the PSP and FISA should be
carefully monitored.




                                       38 

              UNCLASSIFIED 





                PREPARED BY THE 

        OFFICES OF INSPECTORS Gj':NERAL 

                       OF THE 

            DEPARTMENT OF DEFENSE 

            DEPARTMENT OFJUSTICE 

         CENTRAL INTELLIGENCE AG:ENl
           NATIONAL SECURITY
OFFICE OF THE DIRECTOR OF


        (U) UNCLASSIFIED
       PRESIDENT'S   "'TT1.V"'TI

           REPORT No.
